                                                                     NATIONAL SCIENCE FOUNDATION
                                                                 '      4201 WILSON BOULEVARD
                                                                       ARLINGTON, VIRGINIA 22230




                                 OFFICE OF
                            INSPECTOR GENERAL
                                           B
                            Memorandum

                            Date:                    March 28,2000

                            To:                      File #I98120038
.. -- - . . . . . . . . .      - .-.........   ...
                                                                                                          .................   - . - .~         -
                                                                                                                                            . . ..
                                                                                                                                     . . . .~
                            From:

                            Through:

                            Re:


                            Background
                                    We received a letter from an anonymous source alleging that
                            for personal travel and equipment with her NSF funding. The letter
                            funds were bein used to pay for services not related to the grant, and that
                            paying b n i v e r s i t y employees not employed on her
                            grant funds.

                            Investigation
                                   W e requested travel expense reports and source documentation for all of
                            NSF &ants. One trip which had been specifically mentioned as fraudulent by the
                            confidential source was a
                                                                                          or their records of who



                            othe

                            There did not appear to be any irregularity in reimbursements, and all vouchers were
                            supported
                                -      by source documentation.
                                    We also investigated an allegation t h a
                            for football game
                            security company,



                            negotiator at
                                                 m
                                                                                                                                                           w
                                    Il

                                                                                                                                            Close-out-
                                                                                                                                                 Page
                           contract,with                                                                   prove that they use minority-
                           owned businesses.                                                               order to show that they use


                           Findings
                                   We have reviewed several aspects of the allegations presented to us by our ;
                           confidential source. As of this date, all expenses have been supported. This case is
                           closed.
                                    1)

............   .........     - ..               ......                     .............................
                                         .
                                                         ..   .........-                                      ..............-   .........      -.   -.   .............   .   .   ,
                                                                                                                                                                                 .   .   -
